U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Thomas Bryant Jr. v. United States, No. 20-1732
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 10, 2021.
The government’s response is now due, after two extensions, on September 15, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-1732
BRYANT, THOMAS JR.
USA

RYAN S. BAASCH
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
SUITE 1000
WASHINGTON, DC 20004-1304
202-637-1040
RYAN.BAASCH@LW.COM
THOMAS M. BONDY
ORRICK, HERRINGTON & SUTCLIFFE, LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8406
TBONDY@ORRICK.COM
ROY T. ENGLERT, JR.
ROBBINS, RUSSELL, ENGLERT, ORSECK &
UNTEREINER LLP
2000 K STREET, NW
4TH FLOOR
WASHINGTON, DC 20006
202-775-4500
RENGLERT@ROBBINSRUSSELL.COM
SHON HOPWOOD
HOPWOOD & SINGHAL PLLC
1701 PENNSYLVANIA AVENUE, N.W.
WASHINGTON, DC 20006

KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND,WHARTON &
GARRISON LLP
2001 K STREET, NW
WASHINGTON, DC 20006
202-223-7300
KSHANMUGAM@PAULWEISS.COM

